OIG Investigative Reports, Release Number: 2001-090
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
PRESS RELEASE:
RELEASE NUMBER:2001-090
Phoenix, Arizona August 23, 2001
Public Affairs:
(602) 514-7500
Two Indicted for Student Loan Fraud
PHOENIX, ARIZONA - The United States Attorney's Office for the District of Arizona announced today that a federal grand jury at Phoenix, Arizona, returned a five count indictment against Eduardo Gonzalez-Gonzalez, 28 years old, of Phoenix, Arizona, and a separate five count indictment against Bibiano Rodriguez-Becerra, 39 years old, of Phoenix, Arizona.
Each indictment alleges that between 1996 to 1998, each defendant on three different occasions falsely used the name and social security number of another person to obtain federally guaranteed student loans, for a total a excess of $10,000, while also falsely claiming to be United States citizens.
The federal indictments charge each defendant with violating Title 20 of the United States Code, Section 1097(a), Student Loan Fraud, among other applicable sections. Each defendant has entered a not guilty plea and trial dates have been set for October 2, 2001.
A conviction for a violation of Title 20, USC Section 1097(a) carries a maximum penalty of imprisonment for five years, a $20,000 fine, or both.
An indictment is simply the method by which a person is charged with criminal activity and raises no inference of guilt. An individual is presumed innocent until competent evidence is presented to a jury that establishes guilt beyond a reasonable doubt.
The investigation preceding the indictment was conducted by Special Agents of the Office of the Inspector General of the United States Department of Education, Los Angeles, California.
The prosecution is being handled by Richard L. Mesh, Assistant United States Attorney, District of Arizona, Phoenix, Arizona.
Top
Printable view
Share this page
Last Modified: 02/28/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov